No. 19-67
In The

Supreme Court of tf)e fHntteb States
United

States

Of Ameri

ca

,

Petitioner,
v.
Evelyn

Sine

ne ng

-Smith ,

Respondent.
On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Jeremy Girton, a member of the
bar of this Court, certify on this 22nd day of January, 2020, that the Brief for
Religious Organizations as Amici Curiae in Support of Respondent in the abovecaptioned case contains 7,018 words, excluding the parts of the brief that are
exempted by Supreme Court Rule 33.1(d).

